FEC -- Semiannual Report:  Executive Summary (3/98)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending March 31, 1998
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period October 1, 1997 through March 31, 1998.
During this reporting period, two audits were completed and released.  An inspection was also conducted along with two cash counts of the Federal Election Commission's (FEC) imprest fund.
Audit 97-02 - Review of the Commission's Employee Appraisal Process, was released in January, 1998.  The primary objectives of this audit were to:  (1) determine whether the Commission's Employee Appraisal Process is in compliance with applicable Federal Regulations and Commission Personnel Instructions; and (2) determine whether the Commission's monetary incentive process is in compliance with applicable Federal Regulations and Commission Personnel Instructions.
We found the FEC's Performance Appraisal Process substantially in compliance with applicable Federal Regulations and Commission Personnel Instructions.  However, our audit revealed several weaknesses which will be detailed in the audit section of this report.  Management was in agreement with our recommendations contained in the audit report.
Audit 97-03 - Management of Desktop and Laptop Computers, was also released in January, 1998.  The objectives of the audit were to:  (1) Identify and evaluate the adequacy of internal controls over desktop and laptop computers; and (2) evaluate the procedures in place to ensure that computer equipment having an acquisition cost over $5,000 is capitalized and that there is documentation to support the unit cost of computers under $5,000.
Generally we found that the Data Systems Development Division (DSDD) completed a monumental task in creating and maintaining a database of ADP equipment, while at the same time, installing and servicing desktops and laptops.  Our audit did reveal two weaknesses which we have reported as findings.  These areas and management's response will be discussed further in the audit section.
At the request of the Staff Director and FEC Recreation Association (FECREC) President, the Office of Inspector General conducted an inspection of FECREC.  The objectives of the inspection were to:  (1) review FECREC's fund activity and ensure that all funds are properly accounted for in accordance with the organization's By-laws and Articles of Incorporations; and (2) perform a follow-up to the 1994 OIG review of FECREC.
We generally found that FECREC's funds were properly accounted for in accordance with the organization's By-laws and Articles of Incorporation.  Further information concerning this inspection can be found on page 12.
The OIG continued its ongoing project of conducting unannounced quarterly cash counts of the FEC's imprest fund, which totals $2,500.  In both instances, all cash was accounted for and disbursements from the fund were reasonable and consistent with FEC imprest fund policy.
The Inspector General testified at the hearing entitled "Oversight of the Federal Election Commission," held by the Subcommittee on Government Management, Information and Technology.  The OIG, at Chairman Horn's request, also provided the Committee with three sets of the last four years of audit reports and a complete listing of all studies, audits, etc. accomplished by the OIG since its inception.